APPENDIX

App. 1
United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 20-5250

September Term, 2020
1:19-cv-00693-CJN
Filed On: December 22, 2020

Daniel Fling, USPS
Mail Carrier,
Appellant
v.
Andrew Martin, in his ofﬁcial
capacity as Customer Service
Supervisor at the West
McLean Branch for USPS,
et al.,
Appellees
BEFORE: Henderson, Rogers, and Katsas, Circuit Judges
ORDER
Upon consideration of the motion for summary afﬁrmance, the response thereto, and the reply, it is
ORDERED that the motion for summary afﬁrmance be granted. The merits of the parties’ positions
are so clear as to warrant summary action. See Taxpayers Watchdog, Inc. v. Stanley, 819 F.2d 294, 297
(D.C. Cir. 1987) (per curiam). Under the doctrine of
claim preclusion, a ﬁnal judgment on the merits of an

App. 2
action by a court of competent jurisdiction precludes
the parties or their privies from relitigating issues that
were or could have been raised in that action. Smalls
v. United States, 471 F.3d 186, 192 (D.C. Cir. 2006); Nat.
Res. Def. Council, Inc. v. Thomas, 838 F.2d 1224, 1252
(D.C. Cir. 1988). The district court properly determined
that appellant’s argument that his prior case in the
Eastern District of Virginia was not a ﬁnal judgment
on the merits was forfeited because he raised the issue
only in his reply brief, Bd. of Regents of Univ. of Washington v. EPA, 86 F.3d 1214, 1221 (D.C. Cir. 1996), and
did not adequately develop the argument, Davis Broad.
Inc. v. F.C.C., 63 F. App’x 526, 527 (D.C. Cir. 2003). Additionally, appellant does not dispute that the prior
case was adjudicated by a court of competent jurisdiction and the parties or their privies are the same. Finally, appellant’s claims could have been raised in the
prior case because they arise from the same “transaction or occurrence” as appellant’s claims in the prior
action. Page v. United States, 729 F.2d 818, 820 (D.C.
Cir. 1984). Accordingly, the district court properly concluded claim preclusion bars appellant’s claims in this
case.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after resolution of any timely petition for rehearing or

App. 3
petition for rehearing en banc. See Fed. R. App. P.
41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Manuel J. Castro
Deputy Clerk

App. 4
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
DANIEL FLING,
Plaintiff,
Civil Action No.
1:19-cv-00693 (CJN)

v.
ANDREW MARTIN, et al.,
Defendants.

MEMORANDUM OPINION
(Filed Aug. 7, 2020)
Daniel Fling alleges that the U. S. Postal Service
and its agents (collectively, “USPS”), violated his First
Amendment right to freedom of speech and freedom
of association and his Fifth Amendment due process
rights when they terminated him. See generally Am.
Compl., ECF No. 3. USPS moved to dismiss on several
grounds, including that the resolution of a prior action
ﬁled by Fling in the Eastern District of Virginia precludes this suit. See generally Defs.’ Mem. of P. & A. in
Supp. of Defs.’ Mot. to Dismiss (“Defs.’ Mem.”) at 11,
ECF No. 8-1. For the reasons below, the Court grants
USPS’s Motion.
I.

Background

Fling is a former senior mail carrier for the USPS.
In 2014, he successfully challenged USPS’s attempt
to terminate him for complaints about inappropriate

App. 5
conduct by ﬁling a grievance contesting the bases for
his removal. Am. Compl. ¶¶ 46-47,52. Four years later,
USPS again terminated him for similar conduct. Id.
¶ 62. In particular, in mid-January 2017, a USPS customer had complained that certain encounters she had
with Fling made her feel “uneasy,” id. ¶ 66, and in
March 2017, Fling was provided with a Notice of Removal based on both the conduct underlying the 2014
grievance and the 2017 customer complaint. Id. ¶¶ 7678.
In November 2017, Fling ﬁled suit in the U.S. District Court for the Eastern District of Virginia alleging
that his termination constituted a breach of the collective bargaining agreement between USPS and the National Association of Letter Carriers (“NALC”), as well
as a breach of NALC’s duty of fair representation under 29 U.S.C. § 185 and 39 U.S.C. § 1208(b). Id. ¶ 98.
That court dismissed Fling’s complaint with prejudice
on statute of limitation grounds. Id. ¶¶ 100-01.1
Almost a year later, Fling ﬁled the current lawsuit.2 He asserts three claims under Bivens v. Six
1

The court dismissed all claims as time-barred under the
six-month statute of limitations period under Section 10(b) of the
National Labor Relations Act, 29 U.S.C. § 160(b). Pl.’s Cross-Mot.
at 2.
2
Fling’s suit names USPS; Megan J. Brennan, in her ofﬁcial
capacity as Postmaster General; Daniel Grant, in his official
capacity as Postmaster of the West McLean USPS Branch;
Frederico Bynoe, in his ofﬁcial capacity as Carrier Supervisor at
the West McLean USPS Branch; and Andrew Martin, in his ofﬁcial capacity as Customer Service Supervisor at the West McLean
USPS Branch. See generally Am. Compl.

App. 6
Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971), alleging that his termination
violated his First Amendment right to freedom of
speech and freedom of association and his Fifth
Amendment due process rights. Am. Compl. ¶¶ 13151.3 USPS moved to dismiss on several grounds,4 including that res judicata precludes Fling’s claims. See
generally Defs.’ Mem. at 11. Fling opposes USPS’s Motion and partially moved for summary judgment on
certain claims. See generally Pl.’s Mem. of P. & A. in
Opp’n to Def.’s Mot and In Supp. of Pl.’s Cross-Mot. for
Summ. J. (“Pl.’s Cross-Mot.”), ECF No. 10-1.
II.

Legal Standard

To survive a motion to dismiss for failure to state
a claim under Federal Rule of Civil Procedure 12(b)(6),
Fling must plead “enough facts to state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007). “A claim has facial plausibility when the plaintiff pleads factual content that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). The Court
3

Fling originally brought claims allegedly arising under 42
U.S.C. § 1983 and the Fourteenth Amendment; however, he has
since dropped them. Pl.’s Mot. at 5 n.8.
4
USPS also argues that sovereign immunity bars Fling’s
constitutional claims, that Fling fails to state a claim under the
First and Fifth Amendments, that Fling’s Fourteenth Amendment and § 1983 claims cannot be maintained, and that Bivens
does not apply to Fling’s constitutional claims. Defs.’ Mem. at 1.

App. 7
must accept all well-pleaded facts alleged in the Complaint as true and draw all reasonable inferences from
those facts in the plaintiff ’s favor. W. Org. of Res. Councils v. Zinke, 892 F.3d 1234, 1240-41 (D.C. Cir. 2018).
III.

Analysis

The doctrine of res judicata—or claim preclusion—prevents “repetitious litigation involving the
same cause of action or the same issues.” I.A.M. Nat’l
Pension Fund v. Indus. Gear Mfg. Co., 723 F.2d 944, 946
(D.C. Cir. 1983). A subsequent lawsuit will be precluded “if there has been a prior litigation (1) involving
the same claims or cause of action (2) between the
same parties or their privies (3) there has been a ﬁnal,
valid judgment on the merits, and (4) by a court of competent jurisdiction.” Smalls v. United States, 471 F.3d
186, 192 (D.C. Cir. 2006).
Fling concedes that three of those four elements
are met here, and challenges only whether this case
and the prior action “involv[e] the same claims or cause
of action,” id. Fling argues that, because he asserts different claims here than he asserted in his prior suit,
and because his constitutional claims were never adjudicated in that prior suit, res judicata does not apply.
See Pl.’s Cross-Mot. at 31. USPS counters that Fling’s
current and previous action do involve the same claims
or cause of action because they are based on the same
nucleus of facts—Fling’s termination and the events
leading to it. Defs.’ Reply in Supp. of Mot. to Dismiss at
5, ECF No. 15. In USPS’s view, the current Complaint

App. 8
merely contains new legal theories that could have
been asserted in the previous action. Defs.’ Mem. at 7.
The Court agrees. It is well established that the
doctrine of res judicata “precludes the parties or their
privies from relitigating issues that were or could have
been raised in [a previous action].” Allen v. McCurry,
449 U.S. 90, 94 (1980) (emphasis added) (citing Cromwell v. Cnty. of Sac, 94 U.S. 351, 352 (1876)). It is the
“facts surrounding the transaction or occurrence which
operate to constitute the cause of action, not the legal
theory upon which the litigant relies.” Page v. United
States, 729 F.2d 818, 820 (D.C. Cir. 1984) (citation omitted). As a result, whether two cases implicate the same
causes of action turns on whether they share the same
“nucleus of facts.” Drake v. FAA, 291 F.3d 59, 66 (D.C.
Cir. 2002) (quoting id.). And to determine whether two
cases share the nucleus of facts, the Court looks to see
if cases are “related in time, space, origin, or motivation, whether they form a convenient trial unit, and
whether their treatment as a unit conforms to the parties’ expectations or business understanding or usage.”
Apotex, Inc. v. FDA, 393 F.3d 210, 217 (D.C. Cir. 2004)
(quoting I.A.M. Nat’l, 723 F.2d at 949 n.5).
Fling points to no new material allegations in this
suit, nor does he identify any change in circumstances
since the prior action. In fact, the present action appears to be based on precisely the same conduct underlying the prior lawsuit. The relief Fling seeks now is
also the same as the relief he sought in his prior
suit—reinstatement and restitution for lost pay and
benefits, see, e.g., Am. Compl. ¶ 1. To be sure, Fling has

App. 9
repackaged his allegations with new legal theories, but
that is not enough to avoid the preclusive effect of the
prior dismissal. See Smalls, 471 F.3d at 192 (“Although
Smalls omitted any reference to the Tucker Act and
any request for damages in his D.C. complaint, the
factors relevant to the transactional analysis point
against Smalls in light of his single goal of having his
military record corrected. . . .”).5
Fling’s reliance on Whole Woman’s Health v. Hellerstedt, 136 S. Ct. 2292 (2016), does not require a different result. In Hellerstedt, the Court merely held that
a facial, pre-enforcement constitutional challenge to a
Texas law requiring admitting privileges for doctors
did not preclude a second as-applied challenge after
5

Fling also tries to distinguish his new constitutional claims
from his previous contractual claims by noting the claims have
different limitation periods; however, this argument ignores that
“it is the facts surrounding the transaction or occurrence which
operate to constitute the cause of action, not the legal theory upon
which a litigant relies.” Sorenson Commc’ns, LLC v. FCC, 897
F.3d 214, 226 (D.C. Cir. 2018) (quoting Page, 729 F.3d at 820).
And Fling’s one-sentence argument that “[h]is EDVA claim was
never adjudicated on the merits,” Pl.’s Reply in Supp. of Pl.’s
Cross-Mot. at 10, ECF No. 17, is waived because it is perfunctory
and undeveloped, see Johnson v. Panetta, 953 F. Supp. 2d 244,
250 (D.D.C. 2013) (“[P]erfunctory and undeveloped arguments,
and arguments that are unsupported by pertinent authority, are
deemed waived.” (citation omitted)); accord Sherrod v. McHugh,
334 F. Supp. 3d 219, 265 (D.D.C. 2018) (holding the same), and
because he raises it for the ﬁrst time in his reply brief, see Lindsey
v. District of Columbia, 879 F. Supp. 2d 87, 95-96 (D.D.C. 2012)
(holding that “because the District raised [an] argument for the
ﬁrst time in its reply brief, it is waived” (citations omitted)); accord Latson v. Holder, 82 F. Supp. 3d 377, 388 n.4 (D.D.C. 2015)
(same).

App. 10
the law had been enforced. See id. at 2306. In the Supreme Court’s view, the cases presented different facts
based on different circumstances: “Changed circumstances . . . are why the claim presented in [the previous action] is not the same claim as the petitioners’
claim here. . . . Petitioners’ claim in this case rests in
signiﬁcant part upon later, concrete factual developments.” Id.6 Nothing in Fling’s Complaint or briefs here
suggests that he is relying on new facts or changed circumstances.
IV.

Conclusion

Because Fling’s claims are barred by the doctrine of res judicata, USPS’s Motion to Dismiss is
GRANTED and Fling’s Partial Motion for Summary
Judgment is DENIED. An order will be entered contemporaneously with this Memorandum Opinion.
DATE: August 7, 2020

6

/s/ Carl J. Nichols
CARL J. NICHOLS
United States
District Judge

Fling also argues that the Court should not apply res judicata because its application here “would deny [him] any due process from beginning to end.” Pl.’s Cross-Mot. at 35. This argument
completely ignores the fact that Fling could have brought his constitutional claims in the EDVA litigation.

App. 11
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
DANIEL FLING,
Plaintiff,
Civil Action No.
1:19-cv-00693 (CJN)

v.
ANDREW MARTIN, et al.,
Defendants.

ORDER
(Filed Aug. 7, 2020)
For the reasons stated in the accompanying Memorandum Opinion, ECF No. 18, it is hereby
ORDERED that Defendants’ Motion to Dismiss,
ECF No. 8, is GRANTED and that Plaintiff ’s CrossMotion for Summary Judgment, ECF No. 10, is DENIED. It is further
ORDERED that the Complaint is DISMISSED.
DATE: August 7, 2020

/s/ Carl J. Nichols
CARL J. NICHOLS
United States
District Judge

App. 12
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
)
)
Plaintiff,
)
)
v.
)
MEGAN J. BRENNAN,
POSTMASTER GENERAL, )
)
ET AL.,
)
Defendants.
)
DANIEL P. FLING,

Civil Action No.
1:17-cv-1266
Hon. Liam O’Grady

MEMORANDUM OPINION AND ORDER
(Filed Apr. 26, 2018)
This matter comes before the Court on the Postal
Service’s Motion to Dismiss (Dkt. 29) and the National
Association of Letter Carriers’ (NALC) Motion for
Judgment on the Pleadings (Dkt. 43). The motions are
fully briefed and the Court dispensed with oral argument on the motions scheduled for April 6, 2018. For
the following reasons and for good cause shown, both
motions are GRANTED.
I.

Background

Plaintiff initiated this lawsuit on November 7,
2017. In his amended complaint. Plaintiff. a former
Postal Service city letter carrier, alleges he was improperly dismissed from his position by the Postal Service and was harmed when NALC, his union, failed to

App. 13
grieve his dismissal. In count one of the amended complaint, Plaintiff pleads a hybrid claim of breach of collective bargaining agreement by the Postal Service and
breach of the duty of fair representation by NALC. Dkt.
9, p. 19.
The Postal Service investigated Plaintiff for improper conduct toward a woman on his delivery route.
Am. Compl. Plaintiff received the Notice of Removal
from his position on March 29, 2017. Dkt. 44, Ex. 2. The
Notice advised him that he would be terminated
within thirty days. Id. The Notice also explicitly advised him, “You have the right to ﬁle a grievance under
the grievance/arbitration procedure set forth in Article
15 of the National Agreement within fourteen (14) calendar days of your receipt of this notice.” Id. Plaintiff
did not bring the Notice of Removal to the attention of
NALC until May 12, 2017 at the earliest. Dkt. 57, p. 1.
The only contact Plaintiff had with anyone associated
with NALC or the Postal Service during the fourteen
days following Plaintiff ’s receipt of the Notice of Removal, as pleaded in the amended complaint, was “[a]
few days after receiving the Notice . . . ” Dkt. 9, p. 11.
On that day, Plaintiff spoke with Andrew Martin, a
Postal Service Customer Service Supervisor, and discussed evidence Plaintiff had on his cell phone relevant to the grounds for his termination. Id. Ultimately,
NALC did ﬁle a grievance on Plaintiff ’s behalf, but it
was denied as untimely. Dkt. 58, Ex. 1.
In the instant motions, the Postal Service and
NALC contend that Plaintiff has failed to state a claim
and that his claim is time-barred.

App. 14
II.

Legal Standard

To survive a motion to dismiss under Federal Rule
of Civil Procedure 12(b)(6), a complaint must contain
sufﬁcient factual information to “state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 550 (2007). A motion to dismiss pursuant
to Rule 12(6)(6) must be considered in combination
with Rule 8(a)(2), which requires “a short and plain
statement of the claim showing that the pleader is entitled to relief ” so as to “give the defendant fair notice
of what the . . . claim is and the grounds upon which it
rests.” FED. R. CIV. P. 8(a)(2); Twombly, 550 U.S. at 555.
While “detailed factual allegations” are not required.
Rule 8 does demand that a plaintiff provide more than
mere labels and conclusions stating that the plaintiff
is entitled to relief. Id. Because a Rule 12(b)(6) motion
tests the sufﬁciency of a complaint without resolving
factual disputes, a district court “ ‘must accept as true
all of the factual allegations contained in the complaint’ and ‘draw all reasonable inferences in favor of
the plaintiff.’ ” Kensington Volunteer Fire Dep’t v. Montgomery County, 684 F.3d 462, 467 (4th Cir. 2012) (quoting E.I. du Pont de Nemours & Co. v. Kolon Indus., Inc.,
637 F.3d 435, 440 (4th Cir. 2011)). Accordingly, a complaint may survive a motion to dismiss “even if it appears that a recovery is very remote and unlikely.’ ” Id.
(quoting Scheuer v. Rhodes, 416 U.S. 232, 236 (1974)).
A motion for judgment on the pleadings is analyzed
under the same motion to dismiss standard. People for
the Ethical Treatment of Animals v. U.S. Dep’t of Agric.,
861 F.3d 502. 506 (4th Cir. 2017).

App. 15
III.

Analysis

As a preliminary matter, both defendants have appended to their instant motions a copy of the National
Agreement and a copy of Plaintiffs Notice of Removal.
In general, Courts may not look to documents outside
of the complaint when considering a Rule 12 motion.
FED. R. CIV. P. 12(d): Sec’y of State For Defence v. Trimble Navigation Ltd., 484 F.3d 700, 705 (4th Cir. 2007).
However, the Court may take judicial notice of matters
of public record and it may also consider documents attached to the complaint, “as well as those attached to
the motion to dismiss, so long as they are integral to
the complaint and authentic.” Id. For these purposes,
documents can be deemed authentic when the opposing party does not challenge their authenticity in its
ﬁlings. Blankenship v. Manchin, 471 F.3d 523, 526 n.1
(4th Cir. 2006).
What the rule seeks to prevent is the situation
in which a plaintiff is able to maintain a claim
of fraud by extracting an isolated statement
from a document and placing it in the complaint, even though if the statement were examined in the full context of the document, it
would be clear that the statement was not
fraudulent.
Am. Chiropractic Ass’n v. Trigon Healthcare, Inc., 367
F.3d 212, 234 (4th Cir. 2004) (quoting In re Burlington
Coat Factory Securities Litigation, 114 F.3d 1410, 1426
(3d Cir. 1997) (quotation marks omitted)). Plaintiff
does not contest the authenticity of these documents –
rather, they are integral to the complaint in that they

App. 16
serve as the foundation for his claim against NALC
and the Postal Service.
Claim against NALC
Taking the facts of the amended complaint in a
light most favorable to Plaintiff. as well as considering
the complementary facts contained in the National
Agreement and the Notice of Removal, Plaintiff has
failed to state a claim that NALC breached its duty of
fair representation.
A breach of duty of representation occurs when a
union’s actions are arbitrary, discriminatory, or taken
in bad faith. Air Line Pilots Ass’n v. O’Neill, 499 U.S.
65, 67 (1991). While Plaintiff contends in his complaint
that this duty was breached when NALC failed to
grieve Plaintiff ’s Notice of Removal by the deadline of
April 12, 2017, Plaintiff has not pleaded facts to plausibly conclude that NALC had been timely notiﬁed of
the Notice of Removal. The Notice of Removal advised
Plaintiff that he had 14 days to ﬁle a grievance and he
did not. Plaintiff does not contend that NALC somehow
prevented him from grieving the Notice of Removal,
and there are no facts to support such an allegation.
See Groves v. Commc’ns Workers of Am., 815 F.3d 177,
181 (4th Cir. 2016).
Instead, Plaintiff contends that the NALC was
properly notiﬁed on February 18, 2017 at the time
Plaintiff was under investigation and contends that he
discussed the issue with his supervisor, Andrew Martin, “a few days” after receiving the Notice of Removal.

App. 17
Neither fact can save his claim. Providing notice that
you are under investigation, subsequent to a “PreDisciplinary Interview,” is not the same as providing
notice that you have actually been subjected to an adverse employment action. There is nothing in the procedures or in the pleadings that rationally supports
Plaintiff ’s contention that this February 18, 2017 notice, more than a month before he received his Notice
of Removal, was sufﬁcient to trigger NALC’s obligation
to grieve his termination under the National Agreement. While Plaintiff discussing the Notice of Removal
with a supervisor may meet the requirements of Informal Step A of the grievance procedure under the
National Agreement, Plaintiff would still have been required to notify the Union to move the grievance into
a Formal Step A within seven days of that discussion
with Martin. See Dkt. 44, Ex. 1, p. 3. The record is clear
at this stage that that notiﬁcation did not occur.
Plaintiff also contends he assumed NALC would
grieve automatically on his behalf and that the Postal
Service should have sent a copy of the Notice of Removal to NALC. Plaintiff has not put forth a scintilla
of evidence that could support either contention. Plaintiff was made aware in the Notice of Removal that the
ball was in his court to take steps to ensure a grievance
was timely ﬁled and he is assumed to have knowledge
of the requirements of the National Agreement. He and
he alone failed to meet those requirements to properly
grieve his dismissal.
Finally, Plaintiff contends that the NALC breached
its duty of fair representation when it failed to ﬁle a

App. 18
plainly time-barred grievance within fourteen days after it ﬁrst learned of the Notice of Removal on May 12,
2017. This contention is neither supported by law,1 nor
the plain terms of the National Agreement, nor common sense. Any such grievance would have been inexcusably time-barred and frivolous, as is demonstrated
by the fact NALC ultimately did grieve Plaintiff ’s termination and it was rejected as time-barred. While
Plaintiff contends that it was rejected as time-barred
based on the 14-day grievance window beginning on
May 12, 2017, this assertion is plainly contradicted by
the Step B decision, rejecting that grievance, which
found that the 14-day grievance window closed on
April 12, 2017. See Dkt. 58, Ex. 1.2
Claim against the Postal Service
Because Plaintiffs claim against the Postal Service is a hybrid claim encompassing both a breach of
duty of representation claim against NALC and a
breach of collective bargaining agreement claim
against the Postal Service, NALC’s entitlement to
judgment on the pleadings is necessarily fatal to Plaintiffs claims against the Postal Service. See DelCostello
1

Plaintiffs legal support for his contention comes from two
arbitration opinions from 1989 in which the underlying facts bear
few similarities to the instant case. Both cases involved employees who provided notice within fourteen days of ﬁrst learning of
the adverse employment action in their cases.
2
The Court considers the Step B decision both integral to the
complaint and authentic. Accordingly, it is proper for the Court to
consider it at this juncture. See Blankenship v. Manchin, 471 F.3d
523, 526 n.1 (4th Cir. 2006).

App. 19
v. Int’l Bhd. of Teamsters, 462 U.S. 151, 164-65 (1983);
Thompson v. Aluminum Co. of Am., 276 F.3d 651, 65657 (4th Cir. 2002) (holding that a plaintiff “must prevail upon his unfair representation claim before he
may even litigate the merits of his [hybrid] claim
against the employer.”).
Statute of Limitations
Plaintiff ’s claims are time-barred under a sixmonth statute of limitations, running from the latter
of the date of the breach by the employer or the date of
the breach by the union. Del Costello, 462 U.S. at 169;
Harmon v. Am. Elec. Power Serv. Corp., 371 F. Supp. 2d
804, 812 (W.D. Va. 2005). Viewing Plaintiffs complaint
in a light most favorable to him, the November 7, 2017
ﬁling date for this lawsuit was untimely. The Postal
Service terminated Plaintiff on March 29, 2017. NALC
allegedly failed to grieve that termination on April 13,
2017, the day the 14 day window to grieve closed following the Notice of Removal. Accordingly, this lawsuit
could only have been timely if ﬁled on or before October
13, 2017. See Harmon, 371 F. Supp. 2d at 812-13. It was
not.
Plaintiff argues that he is entitled to equitable
tolling of the statute of limitations. However, equitable
tolling is an extraordinary remedy, reserved for rare
instances where circumstances beyond a plaintiff ’s
control have resulted in the expiration of the statute
of limitations and manifested a gross injustice. CVLR
Performance Horses, Inc. v. Wynne, 792 F.3d 469, 476

App. 20
(4th Cir. 2015). Plaintiff cannot meet this heavy
burden because the record is clear that he did not
diligently exercise his rights under the National
Agreement to grieve his Notice of Removal or that either Defendant caused Plaintiff to miss the deadline
for that Notice. Accordingly, Plaintiff has failed to
demonstrate that he is entitled to equitable tolling
of the statute of limitations and the Court holds his
claim to be time-barred.
IV.

Conclusion

For these reasons and for good cause shown, the
Postal Service’s motion to dismiss is GRANTED. The
case against the Postal Service is DISMISSED. Plaintiff has requested leave to ﬁle a second amended complaint. Dkt. 50. p. 14. He has not formally moved for
such leave under FED. R. CIV. P. 15 and has not included for the Court’s review proposed new factual allegations. Consequently, the Court is unable to test the
sufﬁciency of a proposed amendment. Because the
Court sees no conceivable way for these claims to be
adequately pleaded, particularly given the expiration
of the statute of limitations. permitting a second
amended complaint at this stage would be futile. Accordingly, this dismissal is WITH PREJUDICE.
For these reasons and for good cause shown.
NALC’s motion for judgment on the pleadings is
GRANTED. The Clerk of Court is instructed to enter
judgment pursuant to FED. R. CIV. P. 58 in favor of

App. 21
the National Association of Letter Carriers and
against the Plaintiff.
It is so ORDERED.
/s/

April 26, 2018
Alexandria, Virginia

log
Liam O’Grady
United States
District Judge

